September 7, 2001

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

SUBJECT:	 Video Report - Air Carrier Reliability
          (Report Number TR-VR-01-001)

This video report presents the results of our audit of mail delays occurring at the
Hartsfield Atlanta International Airport, (Atlanta Airport) Atlanta, Georgia, (Project
Number 01NA001TR000). It supplements our published audit report dated
August 2, 2001. The report responds to an anonymous complaint alleging that Delta
Airlines allowed large volumes of mail to back up for days.

Our audit confirmed the allegation. Specifically, we found that Delta Airlines allowed
over 600,000 pounds of First-Class Mail, Priority Mail, and Express Mail to remain at the
Atlanta Airport for up to 7 days beginning August 6, 2000, and continuing through
September 8, 2000. During this time, 8,113 flights to which mail had been assigned
departed from Atlanta with no mail onboard. Our audit also disclosed that while the mail
was backlogged at the Atlanta Airport, Delta Airlines did not provide the required
security over and protection of the mail.

We recommended Postal Service management establish a back-up plan that provides
for timely intervention and use of alternative mail transportation when the amount of
mail on-hand at the Atlanta Airport reaches unmanageable levels; assess damages, as
provided for in the Air Systems contract, when air carriers cause major disruptions in the
transportation of mail; and enforce applicable liquidated damages against air carriers
when they do not load mail that has been properly tendered or when they do not
properly protect the mail. Management agreed with our recommendations and the
actions taken or planned should correct the issues discussed in the report.
Management’s comments and our evaluation of their comments are included in the
written report.
Again, we appreciate the cooperation and courtesies provided by your staff during the
audit. If you have questions or need additional information, please contact Maria
Longley, acting director, Transportation, at 312-601-3905, or me at (703) 248-2300.



Debra S. Ritt
Assistant Inspector General
 for Business Operations

Attachment

cc: John E. Potter
    John M. Nolan
    Patrick R. Donahoe
    Mary Anne Gibbons
    John A. Rapp
    Kenneth C. Weaver
    William T. Johnstone
    John R. Gunnels
